<html>
<title> - ASSESSING THE COAST GUARD'S INCREASING DUTIES: A FOCUS ON DRUG AND MIGRANT INTERDICTION</title>
<body><pre>[Senate Hearing 114-458]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-458

                      ASSESSING THE COAST GUARD'S
                   INCREASING DUTIES: A FOCUS ON DRUG
                        AND MIGRANT INTERDICTION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                        U.S. GOVERNMENT PUBLISHING OFFICE 

22-726 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                  Adrian Arnakis Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARCO RUBIO, Florida, Chairman       CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
KELLY AYOTTE, New Hampshire          RICHARD BLUMENTHAL, Connecticut
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               GARY PETERS, Michigan


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2016....................................     1
Statement of Senator Rubio.......................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Wicker......................................     8
Statement of Senator Ayotte......................................    12
Statement of Senator Peters......................................    14
Statement of Senator Sullivan....................................    17

                               Witnesses

Admiral Paul F. Zukunft, Commandant, United States Coast Guard...     4
    Prepared statement...........................................     6

                                Appendix

Response to written questions submitted to Admiral Paul F. 
  Zukunft by:
    Hon. John Thune..............................................    25
    Hon. Daniel Sullivan.........................................    25
    Hon. Bill Nelson.............................................    28
    Hon. Richard Blumenthal......................................    31
 
                      ASSESSING THE COAST GUARD'S
                   INCREASING DUTIES: A FOCUS ON DRUG
                        AND MIGRANT INTERDICTION

                              ----------                              


                        WEDNESDAY, JUNE 15, 2016

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:17 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Marco Rubio, 
Chairman of the Subcommittee, presiding.
    Present: Senators Rubio [presiding], Wicker, Ayotte, 
Sullivan, Cantwell, and Peters.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. I'll call this hearing to order. And I want 
to thank all of you for being here.
    Today's hearing is going to focus on the ever-evolving and 
increasingly vital missions the men and women of the U.S. Coast 
Guard face on a daily basis. They are at the premier--they are 
the premier lifeline when our boaters are lost, when our ports 
need securing, our coastal borders need protecting, and when 
many other essential needs arise.
    When it comes to addressing the flow of migrants, my home 
State of Florida continues to be the state that needs the most 
resources. The Coast Guard has dealt admirably with the 
continued increase in Cuban migrants attempting to make it to 
our shores.
    Because of the repression in Cuba, it's no wonder that so 
many Cubans are boarding makeshift rafts in the middle of the 
night to seek a better life. In fact, as what I believe is a 
direct result of the flawed policy changes towards Cuba, we've 
seen a 196% increase in migrant interdictions from the first 
quarter of 2014 to the same time period in 2016. And it's 
usually the Coast Guard that first encounters, and often 
rescues, those who have fled.
    What is staggering is the lengths these migrants will go to 
evade capture, or force transport to a U.S. hospital. Incidents 
aboard Coast Guard vessels have included stabbing themselves 
with knives, swallowing hazardous materials such as fuel and 
bleach, self-inflicted gunshot wounds, and attempting to flee, 
often by jumping overboard in the middle of the sea. It was 
recently reported that a migrant attempted to light a Molotov 
cocktail during an interdiction last summer.
    It is these acts and the increase in violent and 
noncompliant behavior that put the men and women of our Coast 
Guard in additional danger. As the Admiral states in his 
written testimony, it is this capable and talented workforce 
that is the Coast Guard's greatest strength, and it is they who 
are best equipped to handle this extreme behavior.
    Once migrants are first detected, the job of the Coast 
Guard has just begun. This is evidenced by the May 20 instance 
where 19 Cuban migrants climbed a lighthouse structure in the 
Florida Keys. While the Coast Guard was able to talk the 
migrants off the structure, the next day, two more migrants 
were found on the lighthouse. It was determined they had hidden 
during the previous day's interdiction. It was then reported 
that another individual from the same group was clinging to a 
piece of driftwood 4 miles from Sugarloaf Key. In total, 24 
migrants await a decision on their fate from the courts aboard 
Cutter Diligence.
    Today marks 26 days the migrants have been under the care 
of the U.S. Coast Guard, with a decision from the judge not 
expected for another 2 to 3 weeks. We must remember that, 
although the mission is to intercept and ensure safety of life, 
unfortunately scores of migrants who attempt to make the 
dangerous journey across the Florida Straits are not successful 
and succumb to the elements, or they drown.
    I was fortunate enough recently to spend the day with the 
Coast Guard in Florida. I was briefed aboard the fast-response 
cutter, Margaret Norvell, on the protocols for interdicting and 
processing migrants. Every person brought on board is given 
medical treatment, food, water, shelter, and clothing. They are 
also provided access to U.S. Citizenship and Immigration 
Services, where it's determined whether or not they qualify for 
asylum. If it's determined they do not qualify, it can be days 
or weeks before the migrants are repatriated to Cuba.
    Migrant interdiction is not the only mission vital to 
ensuring the waters and well-being of the American people. As 
the lead Federal agency in charge of maritime drug 
interdictions, the Coast Guard is increasingly responsible for 
stopping the flow of illicit drugs into the United States. This 
year alone, the Coast Guard has seized approximately 290,000 
pounds of cocaine, more than 41,000 pounds of marijuana, 
they've arrested 413 smugglers, and they've seized 119 vessels.
    The drug rings that propel the illicit trades have vast 
resources to move narcotics into this country. And these 
organizations are using advanced methods of smuggling, as 
evidenced by the Coast Guard's recent intercept of two self-
propelled semi-submersibles in the Pacific Ocean within the 
last year. These efforts prevented, by the way, 28 metric tons 
of cocaine from reaching our communities.
    Search-and-rescue missions always represent a vital task of 
the Coast Guard. One only needs to turn on the news on many 
days in my home state to know that this is an apt description 
this--that their motto, ``Semper Paratus,'' means ``Always 
Ready.''
    In 2015 alone, the Coast Guard performed over 3,100 search-
and-rescue missions off the coast of Florida. It's the Coast 
Guard that quickly responded and did everything they could do 
to find Perry Cohen and Austin Stephanos, two teenage boys 
sadly lost at sea last summer. Just last week, the Coast Guard 
sector in St. Petersburg was able to locate and rescue five 
people aboard a disabled boat 60 miles off the Gulf Coast of 
Mexico.
    And last, I would be remiss not to recognize the Coast 
Guard's valiant efforts in searching for the 33 souls who lost 
their lives aboard the El Faro last October. Hurricane winds 
would not stop them from seeking the cargo ship that ultimately 
succumbed to Hurricane Joaquin. These are just a few of many 
examples that show how much we rely on men and women of the 
Coast Guard to quickly respond when we need them the most.
    In closing, Florida has an incredibly high rate of boating 
accidents. In 2015, there were 55 fatalities, 737 accidents. I 
know we can do better, and education is the key to 
accomplishing that.
    We recently observed National Safe Boating Week, and I urge 
everyone to follow the tenets of responsible boating. I would 
note that the Coast Guard has provided a mobile app for boating 
safety, where you can find State boating information, a safety 
checklist, navigation rules, the ability to report a hazard or 
pollution, request emergency assistance, and other important 
features.
    Admiral, I'm pleased you're here to address all of these 
important topics.
    And I now turn over to the Ranking Member today, Senator 
Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chair.
    And I want to say that I'm just sitting in for Senator 
Booker, who is obviously on the floor, but I want to thank 
Admiral Zukunft for joining us today. And it has been a 
pleasure to work with you over the years, and work together on 
many accomplishments. I, too, would like to, as the Chair, 
thank you for your work on trying to rescue and recover on the 
El Faro situation. So, very, very important work, thank you.
    You may be feeling a little more comfortable today because, 
for the first time in a long time, I know that we have, in a 
process moving forward, new funding for a polar icebreaker. And 
to me, and for those in the Pacific Northwest, we've had many 
hearings here where we have fought to secure new funding for an 
icebreaker. So, we're so glad that we are close with both the 
President's budget request including funding for a new 
icebreaker, which we both know has not been easy. So, thank you 
for your leadership. And now in the Senate there's $1 billion 
for a new icebreaker in the defense appropriations bill. So, I 
look forward to working with you to continue to support the 
Coast Guard's effort for polar icebreaker recapitalization.
    While icebreakers are a big deal, a bigger deal is all the 
work that we have done to support the Coast Guard's most 
important asset, the men and women of the Coast Guard, and 
their families. That's why we have worked together on doubling 
the paid leave opportunities for the women in the Coast Guard. 
And I know, in dealing with the Coast Guard, you have pointed 
out that about 40 percent of your new recruits are women, and 
so, making sure that we get these policies correct is going to 
be very important for growing the workforce of tomorrow.
    The Coast Guard bill that became law this year, we extended 
the combat-related special compensation benefits for Coast 
Guard members, because Coasties deserve the same benefits of 
others in uniform for our country. And we were even working 
together to make sure that Coasties stationed in one of what we 
think is the most beautiful parts of our state, the Station 
Neah Bay, gain access to broadband Internet. And I look forward 
to working with you more as we're fighting to make sure that 
healthcare access for Coast Guard families stationed at Cape 
Disappointment, near Sector Astoria, get the same healthcare 
benefits as people in other parts of the country.
    So, I know these are--maybe seem like detailed points about 
the Coast Guard men and women living in the Pacific Northwest, 
but they're critically important for them to continue to do 
their mission. And I look forward to working with you on them.
    I also recently sent a letter, this week, calling for 
necessary improvements to the Fishing Vessel Safety Compliance 
Program. I was joined by more than 30 bipartisan and bicameral 
members to talk about why we need to continue to make 
improvements in the Fishing Vessel Safety Compliance Program. 
And we have secured legislation, obviously, to improve oil 
spill response capabilities throughout Puget Sound and the 
Strait of Juan de Fuca, which we have to do a lot more to 
modernize the United States oil response and prevention 
policies. So, I look forward to being able to ask you about 
that, ways to improve the research and development and new 
cleanup technology, ways to make smarter vessel and traffic 
regulations to address near misses, and want to continue to 
work with the Coast Guard in leveraging the private sector to 
identify methods to clean up emerging oil spills, including tar 
sands, Bakken shale, and other emerging oil products.
    So, thank you for this time, and look forward to having a 
chance to ask you questions. Again, thanks for being here 
today.
    Senator Rubio. Thank you, Senator Cantwell.
    Admiral, are you ready with your statement?

STATEMENT OF ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, UNITED STATES 
                          COAST GUARD

    Admiral Zukunft. Thank you, Mr. Chairman and Ranking Member 
Cantwell, members of the Subcommittee. I appear before you 
today with the utmost gratitude for the support that this 
subcommittee has provided for the 88,000 men and women of the 
United States Coast Guard.
    I would, first, ask that my written statement be accepted 
as part of the official record.
    Senator Rubio. There is no objection.
    Admiral Zukunft. As I look across the Coast Guard's 
operations today, we remain globally engaged, often on all 
seven continents across the globe, to meet increasing mission 
demand. We are operating in both polar regions where human 
activity is increasing exponentially. We are managing emerging 
cyberchallenges in our maritime industry. We are combating 
transnational crime in our western hemisphere, and we are 
keeping pace with changes in commercial maritime industry to 
ensure that we facilitate, and not impede, a vitally important 
industry that we regulate.
    The tempo of operations, quite honestly, are the highest 
that I have seen in my 40 years of service with the United 
States Coast Guard. Fortunately, recent Coast Guard 
appropriations have advanced our long-term acquisition strategy 
and provided critical operating funds for new assets. You are 
helping us build a 21st century Coast Guard posture for mission 
success around the world. And I thank you for your incredible 
support.
    In today's intelligence-driven operating environment, you 
need platforms, like our national security cutter, fast-
response cutters, our new C-27J aircraft, and future offshore 
patrol cutters, to provide the tools we need to overcome an 
increasing complex operating environment. But, these platforms, 
quite honestly, are quite hollow without the men and women who 
bring them to life. It's why my strategy for investing in a 
21st century Coast Guard is every bit as much about adaptable, 
diverse, and specialized people as it is about the ships, 
boats, and aircraft they will use to achieve national 
objectives.
    Mr. Chairman, I'd like to just spend a moment telling you 
about a few of the people who make our Coast Guard successful.
    Maritime law enforcement specialist Megan DeBott, she is a 
pursuit mission commander assigned to the Coast Guard Cutter 
Mohawk. She just returned home last week, following a 
deployment to the eastern Pacific, where she led her team in 
the tactical pursuit and interdiction of six drug-laden 
vessels. These seizures netted over 9 metric tons of cocaine 
and detained over 16 smugglers, part of a critical effort to 
disrupt transnational criminal networks attempting to move 
illegal goods and people by sea. This year alone, we and our 
partners are on a record pace, having disrupted over 245 metric 
tons and detaining 391 narco smugglers to date this fiscal 
year. Critically, each of these interdictions attack the 
financial lines of the illicit cartels. They provide additional 
intelligence against future shipments. And, most importantly, 
they curtail violence and they posture greater stability to 
South and Central America. And, by reducing violence to 
ourself, we also reduce the arrival of unaccompanied minors 
that are flooding toward our southwest borders.
    Maritime interdiction is a people-intensive operation. We 
must maintain multiple ready crews with highly trained 
personnel like Megan to launch at a moment's notice. And the 
training, proficient requirements, and skill to perform these 
high-risk tactical operations cannot be sustained overnight. 
And to that, at 25, Mohawk is our youngest medium-endurance 
Coast Guard cutter. It's the people that bring this cutter to 
life. And once the offshore patrol cutter comes online, there 
is much maintenance for our support personnel to contend with 
as we bring these new platforms to bear.
    I'd also like to highlight the Coast Guard Cutter Polar 
Star, who successfully completed Operation Deep Freeze. In 
doing that, they had a failure in one of the generators and, 
two of their maintenance technicians, they actually used a 
surfboard repair kit to bring that generator back to life when 
they were literally thousands of miles away from our support 
supply chain. And it's people like that, that keep our 
operations viable, as well.
    And so, if you look at every component of the Coast Guard's 
11 statutory missions, it's not the platforms. As Senator 
Cantwell had mentioned, it's the people. It's the people that I 
care dearly about in our 21st century Coast Guard.
    I want to thank this committee for your tremendous support 
as we continue to advance our United States Coast Guard well 
into the 21st century. I look forward to hearing your 
questions.
    Thank you.
    [The prepared statement of Admiral Zukunft follows:]

      Prepared Statement of Admiral Paul F. Zukunft, Commandant, 
                       United States Coast Guard
Introduction
    Good afternoon Mr. Chairman and distinguished Members of the 
Committee. It is my pleasure to be here today to discuss Coast Guard 
missions.
    The U.S. Coast Guard is the world's premier, multi-mission, 
maritime service responsible for the safety, security and stewardship 
of U.S. waters. At all times a military service and branch of the U.S. 
Armed Forces, a Federal law enforcement agency, a regulatory body, a 
first responder, and a member of the U.S. Intelligence Community, the 
Coast Guard operates on all seven continents and throughout the 
homeland, serving a nation whose economic prosperity and national 
security are inextricably linked to vast maritime interests.
    The Coast Guard protects and defends more than 100,000 miles of 
U.S. coastline and inland waterways, saves thousands of lives per year, 
and safeguards the world's largest Exclusive Economic Zone (EEZ), 
encompassing 4.5 million square miles of ocean. Indeed, the Coast Guard 
is fully engaged answering the call and balancing a multitude of 
dynamic maritime risks facing our Nation.
    The Coast Guard is also in high demand globally as an instrument of 
international diplomacy. Many nations model their maritime forces after 
the U.S. Coast Guard to address transnational crime, human smuggling, 
maritime safety and security, and foreign incursions into their 
respective waters.
Service to Nation
    The Coast Guard has a proud, 225-year history of operational 
success. We safeguard the Nation's maritime interests through our broad 
authorities, unique capabilities, and vast partnerships.
    To ensure our service is aligned with national strategies and best 
positioned to address these complexities, we have developed a five-year 
Strategic Intent and continue to focus on our Western Hemisphere, 
Arctic, Energy and Cyber strategies. By using these strategies as 
guideposts, leveraging the intelligence community, and employing a 
risk-based approach to direct our resources where they are needed most, 
we are able to address maritime threats with greater precision and 
effect. While I am proud of our achievements, work remains, and I look 
forward to continued support and partnerships within the Administration 
and with Congress to position the Coast Guard to fully address these 
increasingly dynamic 21st Century threats and challenges.
Southern Approaches and Transnational Organized Crime (TOC)
    The Coast Guard, along with the U.S. Customs and Border Protection 
(CBP), plays a pivotal role in securing our Nation's maritime domain. 
Persistent threats include illegal migration, human trafficking and 
illicit flows of drugs. The prevalence of Transnational Organized Crime 
(TOC) networks exacerbates these threats. TOC networks are driven by 
immense profits from drug trafficking and other illicit activity, and 
their indiscriminate use of violence weakens regional governments in 
Central America, stymies legitimate economic activity and development, 
terrorizes peaceful citizens, and fuels migrant flows.
    Coverage by Coast Guard assets in the maritime approaches pays 
significant dividends by employing timely intelligence from an 
expanding network of partners. The new National Security Cutters 
(NSCs), Fast Response Cutters (FRCs) and our legacy cutter and aircraft 
fleets achieved impressive operational successes in Fiscal Year 2015. 
Critical acquisitions like the Offshore Patrol Cutter (OPC), a more 
capable and reliable replacement for our outdated Medium Endurance 
Cutters (MEC), are essential to our long-term success. We expect to 
take a major step forward in the OPC acquisition by down-selecting to 
one vendor by the end of Fiscal Year 2016.
    In Fiscal Year 2015, the Coast Guard worked with interagency 
partners to help remove 191.8 metric tons of cocaine and detain over 
700 smugglers for prosecution, 144 metric tons and 500 smugglers were 
removed by Coast Guard assets alone. We also repatriated 2,700 Cuban 
and 425 Haitian migrants, and we are closely monitoring maritime 
migration patterns as our relationship with Cuba continues to evolve. 
Thus far in Fiscal Year 2016, three NSCs alone have made over 25 drug 
interdictions in the Eastern Pacific, including two cases involving 
Self-Propelled Semi-Submersible vessels, stopping 28 metric tons of 
cocaine from reaching our streets. In fact, the Coast Guard is on track 
to have a record breaking year for drug removals, having already nearly 
eclipsed Fiscal Year 2015 numbers.
Polar Regions
    Changes in weather patterns and ice continue to introduce risks and 
opportunities in the Arctic. As sea lanes open and access to natural 
resources increases, Coast Guard is promoting the safe and responsible 
use of this vital region. The Coast Guard adjusted our presence to 
better prepare for response when human activity and risk are greatest. 
This August, the cruise ship CRYSTAL SERENITY is planning an historic 
voyage from Anchorage, Alaska to New York City via the Northwest 
Passage. With over 1,000 passengers and 650 crew, the cruise sold out 
in weeks and is expected to prompt similar voyages in the future.
    We have worked with the owners, as well as our Canadian partners, 
to increase the safety and security of this voyage and minimize the 
inherent risk in this challenging environment. The Coast Guard, in 
concert with our Arctic Nation partners, will continue to solidify 
maritime governance regimes, strengthen prevention and response 
capabilities and capacities, and increase awareness of this vast and 
rapidly changing region.
    The formalization of the Arctic Coast Guard Forum is a major step 
in the right direction, as is the recapitalization of our icebreaker 
fleet, but enduring success hinges upon assured access and U.S. 
Sovereign rights in the Polar Regions. In this regard, our aging 
national icebreaking fleet cannot reliably meet our mission needs, and 
I look forward to continuing to work with the Administration and 
Congress to answer the President's call for new heavy polar icebreakers 
as soon as they can be built. Preserving maritime safety and security 
will require improved governance and enhanced unity of effort among our 
partners in the Polar Regions. Our national credibility and ability to 
protect our interests would be greatly advanced by a ratified Law of 
the Sea Convention.
Cyber Domain
    Cybersecurity is not only a vital component of economic and 
national security, but it is also critical to our ability to fulfill 
the Coast Guard's statutory responsibilities. In addition to 
safeguarding our own networks from malicious cyberactivity, the Coast 
Guard is developing regulatory approaches that will instill stronger 
cybersecurity protocols into our Nation's critical Maritime 
Transportation System infrastructure. Thus far in Fiscal Year 2016, the 
Coast Guard has worked with industry partners to conduct cyber 
vulnerability assessments on vessels and facilities in the Ports of 
Houston, Miami, Seattle, and Savannah and will use the results to share 
cyber hygiene best practices. Our Area Maritime Security Committees 
(AMSC) are incorporating cybersecurity specific subcommittees into 
their current practices. Success hinges upon building, developing, and 
retaining an appropriate cyber skill set in our workforce. Given the 
growing global demand for cyber professionals, we will be challenged to 
remain competitive for this highly specialized and uniquely qualified 
workforce.
Maritime Safety, Security, and Stewardship
    The prosperity of our Nation is inextricably linked to a safe and 
efficient Maritime Transportation System. Increased recreational and 
commercial waterway usage, coupled with growing domestic natural gas 
extraction and transport, deeper U.S. ports, and the expansion of the 
Panama and Suez Canals, lead to MTS congestion and continues to place 
more people and property at risk. Continued uncertainty and volatility 
in the domestic energy sector requires dynamic planning efforts on the 
part of the Coast Guard and its partners to effectively regulate 
existing and emerging technologies and ensure the safety, security and 
environmental stewardship of our Nation's waterways.
    In Fiscal Year 2015, we completed more than 16,000 search and 
rescue cases, saving more than 3,500 lives, assisting 26,000 more and 
preserving more than $432 million in property from loss. We responded 
to more than 2,800 oil spills, mitigating damage to sensitive natural 
resources. We also completed over 5,200 security inspections of 
maritime facilities, more than 8,500 small vessel security boardings 
and more than 20,000 security patrols of critical maritime 
infrastructure--and continued the deployment of six patrol boats and 
250 personnel to protect critical Iraqi maritime infrastructure and to 
train Iraqi naval forces.
    We also patrolled the largest EEZ in the world, protecting our 
sovereign rights and suppressing illegal fishing. We maintained the 
world's largest aids to navigation system, released more than 22,000 
safety notices to mariners, identified more than 1,100 icebergs and 
expended over 14,000 operational hours to enable movement of commerce 
through ice impeded waters of the Great Lakes and Eastern Seaboard.
Building the 21st Century Coast Guard
    History has proven that a responsive, capable, and agile Coast 
Guard is an indispensable instrument of national security, and funding 
21st century Coast Guard platforms and people is an especially prudent 
investment. To ensure we are equipped to address the demands of our 
rapidly evolving operating environment, the Coast Guard, with the 
continued strong support of the Administration and Congress, will 
maintain momentum for ongoing asset recapitalization programs while 
also maintaining our track record of accountability as witnessed by 
three consecutive clean financial audits. Fiscal uncertainty presents 
challenges, but we are positioned to complete the NSC and FRC programs 
of record, award the contract for the OPC to replace vessels nearing 50 
years of service, and conduct design work to accelerate the acquisition 
of Polar Icebreakers. These are all tremendous successes and critical 
for our Nation's 21st Century Coast Guard. However, our greatest 
strength is undoubtedly our people, and Coast Guard operations require 
a resilient, capable workforce that draws upon the broad range of 
skills, talents and experiences found in the American population. 
Recognizing our platforms are hollow without a capable and proficient 
workforce, we will continue emphasis on talent management by 
implementing our Human Capital Strategy and our Diversity and Inclusion 
Strategic Plan. Together, modern platforms and a strong, resilient 
workforce will ensure the Coast Guard is prepared to meet future 
challenges.
Conclusion
    As we approach our 226th anniversary, history has proven that no 
other investment will return more operational value on every dollar 
than the extraordinary men and women of the U.S. Coast Guard--including 
48,000 Active Duty and Reserve members, 8,500 civilians, and over 
27,000 members of the Coast Guard Auxiliary. While many challenges 
still lie ahead, with the continued support of the Administration and 
Congress, the Coast Guard's future is bright and we will continue to 
live up to our motto to be Semper Paratus--Always Ready. Thank you for 
the opportunity to testify before you today and for all you do for the 
men and women of the Coast Guard. I look forward to your feedback and 
answering your questions.

    Senator Rubio. Thank you, Admiral.
    I'm going to defer my questions, and I'm going to turn it 
over to Senator Wicker.
    Did you need to run to the Committee?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, that'll give me a chance to follow up 
on what Senator Cantwell mentioned in her opening statement. 
And that's about the icebreakers.
    Have you had time to review the Appropriation Committee's 
proposal to add $1 billion for an icebreaker? To what extent 
would this funding increase--change your acquisition strategy? 
What aspects can be accelerated? And the appropriators added 
the funds to the Navy's account. Can you comment on why you 
think that was done rather than going directly to the Coast 
Guard? How do you envision partnering with the Navy? And what 
can you share with us about your acquisition strategy in this 
regard?
    Admiral Zukunft. Senator, thank you for the question. And 
yes, I have reviewed the Senate's proposal for the $1 billion. 
But, let me tell you where we are right now.
    The President's budget for 2017, that that would 
appropriate $150 million, with that we've already submitted the 
operation requirements document of what we need a heavy 
icebreaker to do in the 21st century, not just from a Coast 
Guard perspective, but from every Federal entity that has 
equities in the polar regions--National Science Foundation, 
Arctic Research Council, Department of Interior, Department of 
Navy, a host of others. So, we've done that due diligence. 
We've shared with FedBizOpps of what the requirements are to 
stimulate industry's interest. And, if I were to go back 3 
years ago, we held an industry day, and, at that point in time, 
we had several million dollars appropriated for researching new 
acquisitions of a heavy icebreaker. And we had maybe three 
interested candidates. We hosted an industry day, back in 
March. We had over 300--domestically, international shipyards. 
And so, we are very dialed in on accelerating the timeline. We 
are already hiring acquisition personnel to facilitate that 
process and even looking at parent craft designs so we don't 
have to start from scratch, but look at other heavy icebreaker 
designs and use that as a parent craft, if you will.
    Back to the $1 billion, that that has been--that that would 
be appropriated to the United States Navy. This would not be 
unprecedented. Our only medium icebreaker, the Coast Guard 
Cutter HEALY, was appropriated through U.S. Navy funding. What 
has changed since we acquired the Coast Guard Cutter HEALY is, 
we have stood up a--an acquisition force that I am immensely 
proud of, and we are used to working with the Navy on 
identifying standards, requirements, stable funding to be able 
to move this forward. So, we would not have to start a 
relationship from anew. And, at the end of the day, 
frontloading $1 billion provides that full frontload up front 
that would allow us to accelerate final design award and, 
ultimately, construction of a heavy icebreaker.
    Senator Wicker. Would you prefer that the funds be directly 
allocated through the Coast Guard than through the Navy?
    Admiral Zukunft. Senator, I'm agnostic to, you know, how it 
gets appropriated. We have been in a protracted fifteen year 
discussion about the polar regions, our need to recapitalize 
heavy icebreakers, and this is the closest to success that I 
have seen for as long as I have been intimately involved in the 
planning, the design work, and where we need to be in the 
Arctic region.
    Senator Wicker. For the next two winters, what is your 
capability for icebreaking?
    Admiral Zukunft. So, our capability right now, we have one 
heavy operational icebreaker. That is the Polar Star. She 
routinely goes down to Antarctica to support the scientific 
mission down there. The Coast Guard Cutter HEALY, our medium 
icebreaker, is underway as I speak today supporting scientific 
mission and a number of other national strategic objectives up 
in the Arctic region.
    Senator Wicker. OK. Now, when the seasons change, will that 
one in Antarctica be back up north?
    Admiral Zukunft. When the season changes, we will typically 
bring that one heavy icebreaker back. They are--they will go to 
a shipyard, do some refurbishment to get them ready to go again 
the next year. It really takes a minimum of two heavy 
icebreakers to do the work that we do down in Antarctica.
    Senator Wicker. So, your capability in the Arctic is now 
one. You'd like for it to be two.
    Admiral Zukunft. We have a high latitude study that 
actually, through a third party, would say we need three medium 
and three heavy icebreakers in our national inventory.
    Senator Wicker. But, the plan now would be to give you two?
    Admiral Zukunft. Right.
    Senator Wicker. All right. One other thing. About this, 
``Going to Need a Bigger Coast Guard Going Forward,'' in the 
SEAPOWER magazine, can you explain to us the process you and 
your staff are using to allocate the limited funds you have, 
what missions are not receiving top priorities, and what would 
you correct, if you could?
    Admiral Zukunft. Well, we always talk about intelligence 
driving operations. And so, 2 years ago, you know, we looked at 
the flow of drugs, the amount of intelligence that we had. And 
the drugs are really destined immediately for Central America, 
en bulk. They're broken down to retail value and eventually 
smuggled into the United States. We had intelligence on about 
85 percent of the drug flow in the maritime transit zones, 
where most of these drugs are being transhipped. On the best of 
days, we could target 10 percent. So, that means 75 percent 
gets a free pass.
    When I looked at some of our distant water fishing vessel 
enforcement regimes, we are seeing compliance rates of over 90 
percent. But, we're allocating a lot of resources, trying to 
get to 100 percent, when we have a 10% scorecard in the transit 
zone that is immediately impacting regional stability. So, we 
reallocated some of those resources to bolster our presence in 
the transit zones at a point in time where the United States 
Navy decommissioned the Perry-class frigates, which were really 
our stalwarts with Coast Guard law enforcement teams doing 
enforcement activity in those regimes.
    So, those are tradeoff decisions that we have to make. How 
do we best manage risk to the optimum effect? And in--this is a 
point in time where we're seeing, having met with three--all 
three Presidents of the triborder region, a big cause of their 
security environment, causing them to be the most violent 
countries in the world, are the maritime landings of bulk 
shipments of cocaine that undermine rule of law, good 
governance, and ultimately are causing men and women to put 
their young children in the hands of a human trafficker to find 
a safe haven here in the United States.
    Do we have all the resources we need to do the job? No. 
But, we are clearly focused on the areas that, through 
leveraging all of the wealth of our national intelligence 
community of, Where do our authorities resonate most? And many 
of those are right here in this hemisphere, even though, yes, 
we are spread across the world. But, where we are stacked the 
most are here in our western hemisphere, protecting our U.S. 
maritime borders.
    Senator Wicker. Thank you, sir.
    Senator Rubio. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chair.
    Following up on this Coast Guard discussion of icebreakers, 
you talked about the Polar Star, which is being refurbished and 
then it'll head to Antarctica, and then the HEALY. But, don't--
doesn't the United States require, like, six heavy and four 
medium polar icebreakers to meet the Coast Guard and Navy's 
missions for the future? And doesn't the Navy acquire vessels, 
you know, at least, like, three per class, so that we actually 
have the resources? Doesn't the Coast Guard follow a similar 
model?
    Admiral Zukunft. We do, Senator. And we usually say it 
takes three to make one. You have one ship that is persistently 
present. And if it's in the polar regions, it takes a while to 
get there. You come back, and that ship--you know, they're 
breaking ice, and they have to go into a shipyard, so they're 
taken off cycle. And, meanwhile, you have a third ship that's 
ready to deploy and fill the void left by the ship that just 
returned. So, whether it's an icebreaker or whether it's an 
aircraft carrier, whether it's a fast-response cutter, a 
national security cutter, the three-to-make-one model is pretty 
consistent across all fleets, not just U.S.----
    Senator Cantwell. How many----
    Admiral Zukunft.--but worldwide.
    Senator Cantwell. Thank you. Thank you.
    How many nations are laying claim to the Arctic? And how 
many icebreakers do they have? Do they have at least more than 
one icebreaker to manage their oversight of that region?
    Admiral Zukunft. I'd probably just mention--I just met, 
this past Thursday and Friday, with all of the Arctic Coast 
Guards. We stood up on Arctic Coast Guard Forum while the 
United States chairs the Arctic Coast Guard--the Arctic 
Council. And so, Russia has 40----
    Senator Cantwell. Forty icebreakers?
    Admiral Zukunft.--41. They are in the process of completing 
another nuclear carrier. It will be the most powerful nuclear 
icebreaker in the world.
    When I sit down with the other Coast Guards, we recognize 
the vastness of the Arctic, the increase in human activity, 
that none of us, singularly, have all the resources we would 
need to respond to a mass rescue, to respond to an oil spill if 
we see offshore drilling up in the Arctic domain. That's 
incumbent upon the Coast Guards of the Arctic to work together. 
We will meet again----
    Senator Cantwell. But, you're not saying that our response 
to a--an oil spill or something in the Arctic is, ``Call the 
Russians.''
    Admiral Zukunft. We may have to. And so, if you want to 
hold that thought, I'd go back to the Deepwater Horizon oil 
spill. I was the Federal on-scene coordinator. We had over 20 
filled requests for international assistance. We didn't have 
enough skimmers in our United States inventory. Russia today 
would be problematic. Where is our relationship with Russia 
going to be 20-30 years in the lifetime of a heavy icebreaker? 
So, I need to think beyond the present, but how do we look at 
brokering those assets? We do know that, if there's a vessel in 
distress, it doesn't matter what our tensions may be; the rule 
of a Good Samaritan will come to bear.
    Senator Cantwell. Well, I'm going to leave the response to 
that to my able colleague from Alaska, who I think will join 
with me in saying we don't think the United States response to 
the Arctic should be, ``Call the Russians.'' But, I'll let him 
follow up on that, because I have to ask you two other things.
    One, this region, out in our coast, that does such a great 
job at the mouth of the Columbia River, which is a very 
challenging area, so they are training our National Motor 
Lifeboat School, they're doing tremendous work. The mouth of 
the Columbia River out to the Pacific, as you know, vital for 
so many economic interests, yet these people can't get the 
healthcare that they deserve. So, I need your help, in working 
with DOD, to make sure that they get TRICARE Prime Remote. It 
is remote. So, I don't understand why and what's happened here, 
but these families that are doing a great job and I can also 
tell you, I'm putting a lot of heat on them, as well, as it 
relates to, What is our response to a tsunami or Cascadia Fault 
situation? So, we want people there to serve our country, to 
feel like they are not second-class within the Coast Guard 
because they get a lesser healthcare status, and we want them 
to be great participants in this big challenge to a Pacific 
very flatland area that has to face tsunami threats all the 
time. So, can we get your help with that, working with the 
Department of Defense?
    Admiral Zukunft. Senator, first, I appreciate your 
tremendous support for our men and women. And that was the 
inappropriate categorization of a--an outpatient clinic that we 
have that was then designated as a military treatment facility, 
which, as you are well aware, is not, which placed our 
dependents at a great disadvantage. So, I share in your ardor 
to correct that wrong.
    Senator Cantwell. Great. I will look forward to working 
with you.
    I'll submit something for the record, but obviously the 
Strait of Juan de Fuca and continuing to focus on oil spill 
response plans is something of very high concern. Again, we 
don't want the Canadians to do the antithesis of what we just 
talked about in the Arctic and have an oil spill and then say, 
``Call the Americans.'' We don't want that, either. We'll 
submit a question for the record.
    And thank you for being here today.
    Senator Rubio. Thank you.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman.
    Thank you, Admiral.
    I wanted to follow up. I know your initial testimony about 
the important work that the Coast Guard is doing on drug 
interdiction and disrupting transnational drug networks. And, 
as you know, in February, the U.S. Coast Guard Cutter Campbell 
returned to Portsmouth Naval Shipyard after a 61-day 
counternarcotics patrol of the Caribbean Sea and eastern 
Pacific Ocean. As I understand it, the Campbell seized about 
4800 pounds of cocaine worth more than $80 million. And these 
shipments from South American were bound for the United States.
    I would like to ask you, in terms of your interdiction 
efforts, there's another issue. I know that that was a very 
significant amount of cocaine, obviously worth a tremendous 
amount of money. We're also facing a heroin epidemic. And I 
know that a good deal of it is actually coming over on the land 
side, but wanted to get your thoughts on what the Coast Guard 
is seeing, in terms of the heroin issue on the water side. And 
also, especially, what kind of cooperation do you have--I serve 
on the Armed Services Committee--with NORTHCOM and SOUTHCOM, 
with your interdiction issues?
    Admiral Zukunft. I'll first talk about, you know, opioids, 
heroin. You know, in a maritime domain, we see very little of 
it. We've seized probably a little over 50 kilos, which is 
still a lot of heroin----
    Senator Ayotte. That's a lot of heroin, yes.
    Admiral Zukunft.--that were commingled with cocaine 
shipments. This was originating from Colombia. As you are well 
aware, the opioids, the heroin that is now flooding all the 
communities--State of New Hampshire, especially--is originating 
in Mexico.
    My other role as Commandant is, I also chair the 
Interdiction Committee within the Office of National Drug 
Control Policy. We have started a campaign called Farm to Arm, 
of--how do we look at regional demographics of heroin overdoses 
laced with Fentanyl? And how do you get beyond a province, how 
do you get beyond a State and then trace it back to the 
Southwest Border to really get at the hub of this activity 
whose origins are really in Mexico?
    Senator Ayotte. Right.
    Admiral Zukunft. And so, that is the challenge that we see, 
going forward. I am especially concerned as we see more and 
more Fentanyl being introduced----
    Senator Ayotte. As you know, Fentanyl is----
    Admiral Zukunft.--and there's worse to come.
    Senator Ayotte.--up to 50 times more powerful. I mean, 
essentially 1 gram of Fentanyl--according to CDC, 7,000 doses 
of heroin, the equivalent, in terms of on our streets. So, 
where do you see heading up this committee as you look about 
the southern border and the--this coming from Mexico--what 
efforts, collectively, in your role in--as the lead of that 
task force, that you think you need additional support on?
    Admiral Zukunft. Most of this, as you highlighted, is 
coming across our southwest border through our ports of entry. 
And very lucrative means of, How do you secret, you know, grams 
of cocaine? People that will walk across the border having 
swallowed this.
    Senator Ayotte. Yes.
    Admiral Zukunft. And then it be covered at some point later 
on. So, very, very problematic in, how do we detect this? And 
recognizing, you know, the addictive characteristics of 
opioids, as well. It's a two-part campaign. And it's a 
campaign. We've never been in a war on drugs. It's a campaign. 
And just as much as we need to interdict, we also need to look 
at the--How do we reduce the supply of this? How do we 
rehabilitate the addicts?
    Senator Ayotte. And the demand end, right, the treatment 
and the recovery----
    Admiral Zukunft. Right.
    Senator Ayotte.--which is certainly something that--you 
know, we passed a really good piece of legislation, I was proud 
to be a lead sponsor of, in March, called the Comprehensive 
Addiction and Recovery Act, so dealing with both sides.
    Well, I appreciate your testimony today and want to thank 
you for the efforts that the Coast Guard is making, in terms of 
the interdiction, because that really is critical on the supply 
side. I mean, our law enforcement, this is something they can't 
do alone, and they really need the support on these 
transnational networks, and also the work that you're talking 
about with other countries to get them to step up their game in 
their own country.
    Admiral Zukunft. Thank you, Senator.
    Senator Ayotte. Thank you.
    Senator Rubio. Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And thank you, Commandant, for your testimony today.
    As I know you're aware, Michigan residents value the Coast 
Guard's very important role in the Great Lakes. With an 
international border, seasonal ice cover, year-round outdoor 
recreation, and a very robust maritime transit industry, the 
Coast Guard provides critical support for law enforcement, 
search-and-rescue operations, icebreaking, and environmental 
protections throughout the Great Lakes.
    Michigan is also lucky to have the men and women of the 
Coast Guard as members of our coastal communities. This 
appreciation for the Coast Guard is evident across Michigan, 
from the volunteers in the Coast Guard Auxiliary who support 
Coast Guard missions each and every day to the Annual Coast 
Guard Festival in Grand Haven, Michigan, which, I may say, was 
the original Coast Guard City USA. Put that in the record for 
everyone to remember.
    In light of the Coast Guard's essential role across the 
Great Lakes, I am concerned with a proposal to make seasonal 
multiple boat stations in the region, including four stations 
that are located in Michigan. And I worry that such a proposal 
would remove valuable staff and resources during the off 
season, when a rapid response to a call to help or for an oil 
spill is critical to saving lives and protecting the 
environment, regardless of when it occurs.
    I just want to say for the record that I appreciate the 
Coast Guard's responsiveness to discussing this issue. My staff 
has had a number of conversations with folks from the Coast 
Guard. They--you have been--your office has been very 
responsive. But, I intend to continue to follow up. I know the 
communities that I am blessed to represent have many more 
questions, and we'd like to see some of those responses in 
writing as to the process being used and the rationale for 
closing some of those stations, and look forward to working 
closely with you, Admiral, on that.
    I'd like to start off by kind of continuing the theme of 
icebreakers, which we've heard quite a bit about your polar 
icebreakers. But, of course, in the Great Lakes, especially in 
recent winters, we have seen some very heavy ice cover in the 
Great Lakes, as well. In fact, some recent winters have cost 
the region, it's been estimated, potentially thousands of jobs 
and $1 billion in lost revenue as a result of the incredibly 
heavy ice cover.
    As you know, the Coast Guard is required by law to keep 
shipping channels open and clear during the winter months. But, 
I am concerned that our one heavy icebreaker, the Mackinaw, and 
the rest of what is a very aging fleet on the Great Lakes do 
not have the capacity that you're going to need to execute this 
icebreaking mission in the years ahead.
    A bipartisan group of Senators from the Great Lakes shares 
my concern. I'm not alone in expressing this, as you know, 
which is why we have all joined a letter to the appropriators 
asking for robust funding for the design and construction of a 
new heavy icebreaker on the Great Lakes. And I was pleased to 
see the Appropriations Committee heeded this request by 
including a $2 million mark for the initial work on this new 
Great Lakes icebreaker that would be at least as capable as the 
Mackinaw in cutting through freshwater ice.
    I would like you, if you would, Commandant, just share for 
us and the committee your concerns about capacity on the Great 
Lakes and your support for building an additional icebreaker 
for the needs there.
    Admiral Zukunft. Yes. Senator, our near term is, one, 
restore into a service life extension program on our 940-foot 
inland icebreakers. And, in years past, we have pulled some 
from the lower States to augment when we had--especially 2014 
being nearly 95 percent ice coverage of the Great Lakes. At the 
same time, we've entered into a memorandum of agreement with 
Canada. And so, being able to leverage their heavier 
icebreakers, as well.
    So, when I look at icebreakers, writ large, I have to look 
at my biggest concern, which goes back to my heavy polar 
icebreaker. If that becomes beset in ice in, say, Antarctica, I 
have no self-rescue capability whatsoever. In the Lakes, I do 
have that.
    Also well aware of the fact that I have a legislative 
requirement to keep those waterways open, as well, to 
facilitate commerce. And so, if we look at 2014, I don't know 
if I had a--if I had a second Mackinaw, if I would have been 
able to make my program goals, as well.
    I am not a climatologist. And so, we need to look at, you 
know, What does the future portend? But, we will have to 
recapitalize the Mackinaw at some point in time. Do we need to 
do it today? Right now, I am recapitalizing our national 
security cutters, fast-response cutters, a new offshore patrol 
cutter that will award final design at the end of this Fiscal 
Year, a heavy icebreaker. And so, I will need--would need a lot 
of lift to think I could recapitalize five ships, you know, all 
in the same increment. So, it's a question of, you know, how 
much can we take on at one point in time?
    Near term is, extend the service life of those 940-foot 
icebreakers. This year did buy us a reprieve, in that we did 
have a lighter ice season. But, I can't bank on hope and luck, 
that that's going to pervade into the future, as well.
    With that, I have a discussion with our Canadian 
counterparts on the fifth of July to look at what--their 
recapitalization strategy, as well, for their inland 
icebreakers, so we don't look at one another and find out that 
we have sold ourselves short on this, as well. It does have my 
full attention, Senator.
    Senator Peters. Well, I appreciate that. And that capacity 
in the Great Lakes, as you mentioned, to maintain the maritime 
commerce, which, of course, is critical, but the other concern 
that we have in Michigan, and we have talked about this in the 
past, relates to oil spill response. So, we have an aging 
pipeline in the Straits of Mackinaw, which a recent University 
of Michigan study stated that if there was a pipeline break in 
the Straits, it's the absolute worst place to have a break 
anywhere in the Great Lakes basin, which would threaten the 
drinking water to--as you know, over 40 million people drink 
water out of the Great Lakes. Having an oil spill there, and in 
freshwater, which technology is somewhat limited as to how we 
actually clean up, that is a concern.
    We recently passed the Safe Pipes Act that required folks 
to put together response plans in heavy ice, which I was 
surprised to hear was not part of plans or requirements, at 
least in the past. And, as you know, the Straits of Mackinaw 
can be covered with very thick ice, which would make cleanup 
very difficult if it occurred at that time. We also have the 
St. Clair River, which also has a number of pipes, that also 
gets completely closed in ice.
    Could you respond or assess some of your concerns about 
cleaning up an oil spill with heavy ice cover in the Great 
Lakes, given the limited capacity of icebreakers as well as the 
challenges of cleaning up an oil spill in freshwater?
    Admiral Zukunft. Senator, we've spent a fair amount of 
research on removing oil in an iced environment. One of the 
catalysts for that, when we saw shale drilling up in the 
Chukchi Sea, but certainly the same phenomenon applies in the 
Great Lakes. I've been to the research facility where we've 
looked at this, and it does cause me concern, as well, if you 
were to have a major oil spill in an iced environment. And, as 
you're well aware, that ice, even if you break it, it moves 
with the shifting currents. So, it is a challenge for us.
    We're also working with our National Response Team here. 
You have different types of oil. One that Senator Cantwell had 
alluded to is tar sands, or what we call bitumen, that has 
roughly the same specific gravity as water, and so it doesn't 
float; now it sinks. And if it sinks, does it then get into our 
water intake?
    So, all of those are truly concerns of mine, and the 
technology of removing ice--oil in an iced environment is going 
to be challenging for us to do so in a major oil spill during 
an ice season.
    Senator Peters. Well, I appreciate that. And, of course, 
being in freshwater, as well, a number of--my understanding, a 
number of the techniques used to clean up oil don't necessarily 
work in freshwater----
    Admiral Zukunft. Right.
    Senator Peters.--particularly freshwater that may be used 
for drinking water.
    And you talked about the currents of ice. As you're well 
aware, the Straits of Mackinaw, the amount of volume that goes 
through--water volume that goes through the Straits of Mackinaw 
is equal to ten times that of Niagara Falls. Those are some 
pretty strong currents and an awful lot of pressure on that 
ice, which complicates it.
    So, I look forward to working with you. We have to make 
sure we're protecting that valuable resource. And I thank you 
for your efforts.
    Admiral Zukunft. Thank you, Senator.
    Senator Rubio. Thank you.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Admiral, good to see you again, sir.
    I want to follow on. As--pretty much every member of the 
Committee is talking about the need for icebreakers. And I 
would fully agree with Senator Cantwell that calling the 
Russians is not a good national strategy for the United States 
with regard to our interests in the Arctic, which are growing, 
as you know. Huge resources for the country. Very important new 
sea lanes of commerce.
    So--and I believe when you said the Russians have 40 
icebreakers, it's--some of them are nuclear, and it's--I think 
they have 13 more they're planning on coming online. So, it's 
going to be up to 53. We have two. One is barely operational.
    Given that we have all these interests and that the 
Russians are very active, and so are other countries with more 
icebreakers than us, some countries that aren't even Arctic 
nations--and again, I like to remind my colleagues here, 
America's an Arctic nation because of the State of Alaska--but, 
is three medium icebreakers and three heavy icebreakers--is 
that enough to meet our national security interests and our 
commercial interests?
    Admiral Zukunft. Senator, in the world as we know it today, 
I would stand behind, you know, three heavy and three medium.
    Senator Sullivan. Why would you stand behind that, when the 
Russians have 53 and other countries, much smaller countries, 
have more than we do?
    Admiral Zukunft. Well, when you look at Russia--and I'll 
acknowledge, Russia has been very transparent on how they use 
their icebreakers.
    Senator Sullivan. So, you think three medium and three 
heavy is enough to meet the needs--national security and 
economic needs of the United States.
    Admiral Zukunft. I do.
    Senator Sullivan. I would just beg to differ. Maybe you can 
lay out your analysis for the record, in terms of a question on 
that, relative to what is happening in the Arctic and relative 
to what the Russians are doing in the Arctic, and how you can 
say--it seems to me that three will end up having a ``Call the 
Russians'' as our ultimate strategy, which is unacceptable.
    And, you know, Admiral, it--there is a bipartisan 
consensus. We haven't seen that. Even the President, when he 
was in Alaska, acknowledged the icebreaker gap. So, I think we 
can do much better than that. But, you're starting to see the 
Congress move on that, which is important.
    Related to that, there's often this figure that's $1 
billion to build a heavy icebreaker. Is that correct? And is 
that an accurate figure? It seems very high to me.
    Admiral Zukunft. Yes. That's an estimate. And we have not 
built a heavy icebreaker in over 40 years. Our industrial 
complex has not laid up hull thickness for vessels of that size 
in the same amount of time, so there would be front-end 
investments. So, it is somewhat speculative of what that dollar 
value is.
    But, when we look at what you need an icebreaker to do--to 
exert sovereignty, to be a floating command post, to sort--
support a scientific mission, to provide maritime domain 
awareness--it's a pretty wide spectrum of capabilities you're 
putting on one platform.
    We also recognize that, what would the response protocol be 
in the high latitudes? Do you invest in shore infrastructure, 
or do you invest in at-sea infrastructure? At least for the 
near term, it would probably be more prudent for us to invest 
that at-sea infrastructure, not knowing what the next 20 to 30 
years might have in store with melting permafrost and the like.
    Senator Sullivan. Let me ask--Senator Peters was talking 
about the legislative requirement to keep the Great Lakes sea 
lanes open. Is there a similar legislative requirement to keep 
the Arctic sea lanes open?
    Admiral Zukunft. Senator, not that I'm aware of.
    Senator Sullivan. OK.
    Let me turn to your broader recapitalization plan, Admiral. 
I was just recently out in Kodiak, spent the whole day with 
your fine young men and women out there. You know, that's, I 
think, an outstanding, outstanding air station, you know, 
maritime station for the Coast Guard, but it also, certainly to 
me, reminded me of just the vast, vast coverage that the Coast 
Guard has with regard to our interests--maritime, fishing--off 
the coast of Alaska.
    The recapitalization plan that the Coast Guard put forward 
calls for eight national security cutters, 25 offshore patrol 
cutters, total of 33 major cutters, which represents a 25% 
reduction in the total number of major cutter hulls. In Alaska, 
there's going to be--we have seven 110-foot island-class 
cutters that are going to be replaced by six fast-response 
cutters. Given that there's so much increasing activity, 
whether it's fisheries, whether it's the Arctic, whether it's 
search and rescue, does it make sense to replace seven with 
six? It would seem to me we need to be going in the opposite 
direction, particularly when the GAO has come out, in a 2014 
report, had some questions about the new fast-response cutters 
meeting their operational capacities that they have advertised.
    And then finally, given, again, all the interest in the 
Arctic that we have, I believe the closest national security 
cutter to the Arctic is in California. Doesn't it make sense to 
replace the 110 cutters, island-class, with at least the same 
or more, in terms of fast-response cutters, and to have a 
national security cutter based in a geographic part of the 
world that's increasingly important and has coverage that, as 
you know, Admiral, is enormous? And right now, Kodiak plays a 
big role in that, and they have to fly sometimes thousands of 
miles just to get to activities where they're keeping Americans 
safe.
    Admiral Zukunft. Yes.
    Senator Sullivan. I know that's a lot of questions. I tried 
to pack them in before the Chairman cut me off here.
    Admiral Zukunft. So, let me, first, address our island-
class, our seven, that will be replaced with six fast-response 
cutters. Those island-class boats, they run at about 1,850 
hours per year. And, quite honestly, right now they're not 
meeting that level, due to unscheduled maintenance. The new 
fast-response cutters are programmed for 2,500 hours a year. 
So, you know, for each hull, you end up getting 650 more 
operational hours, times six. So----
    Senator Sullivan. But, is--GAO study confirm all that? I 
thought that was saying some of the operational efficiencies of 
the incoming cutters are not as advertised.
    Admiral Zukunft. I would be happy to brief you on the GAO 
report separately. That was really looking at boats, and boats 
that are iced in on the lakes in the winter, which is why we 
had to address seasonalization. So, it might be--you know, 
there might be some mischaracterizations there. But, we are 
getting great utility out of these fast-response cutters, which 
is why we looked at, at the end of the day, How much at-sea 
presence do we have? And it actually increases, and they can 
operate in much greater sea states than those island-class 
boats can, as well.
    As I go back to our national security cutters in the bed-
down plan, where we home-port those, these transit at a much 
faster speed. So, from Alameda to the Bering Sea, it's less 
than 5 days. They deploy for 210 days out of the year.
    Senator Sullivan. Five days is a long time if you're 
sinking in the Bering Sea.
    Admiral Zukunft. There's always one there. And so, we 
always make sure we have persistent presence in the Arctic. 
But, the challenge for me, Senator, is not--is the out-year 
cost. The title--total lifecycle cost of a national security 
cutter. It's not the front-end acquisition, it's the 
maintenance that goes with that. And a lot of this maintenance, 
with smaller crews, has to be contracted out, which is why we 
cluster ships of the same class in one home port.
    Kodiak is the optimal port for our offshore patrol cutters, 
where we would home-port two of those cutters. And they're 
designed with the Bering Sea in mind. The reason we put Sea 
State 5 in that requirement was with the Bering Sea in mind, 
first and foremost. Sea State 5 means they can operate 
routinely in seas up to 11 feet. They can launch and recover 
helicopters in those sea states. Our existing 378s cannot. So, 
that was really the thought, going forward, of, Where do we 
cluster these? But, we need to put more than one ship of the 
same hull type in a given home port. And that's where we're 
looking at Kodiak.
    The other piece of that is, we need to make sure we have 
the other infrastructure--the housing, in particular--to 
support the crews and then the people that maintain those 
ships, as well. So, all of that is being looked at 
collectively.
    And, make no mistake, you know, Kodiak is Coast Guard 
country. Alaska is Coast Guard country. And we will be invested 
in Alaska for the long haul, going forward. Our reinvestment 
strategy has Alaska very, very frontloaded into that thought 
process.
    Senator Sullivan. Thank you, Admiral.
    Thank you, Mr. Chairman.
    And I'm going to submit, for the record, an additional 
question. Senator Murkowski and I are submitting a letter to 
you, Admiral, that relates to the recent changes in the 
restricted operator of uninspected passenger vessel regs that 
recently came down that we think could severely negatively 
impact the guiding industry. And we want to get your questions 
on that for the record.
    Thank you, Mr. Chairman.
    Admiral Zukunft. Yes. Senator, if I can just take that, you 
know, on the record. I will--I am revisiting that very same 
regulatory process. I have fished with those guides up there.
    Senator Sullivan. Yes.
    Admiral Zukunft. The provision that concerns me the most is 
the 360 days for a new entrant to be able to enter into this 
world of work. I recognize the seasonality that goes with that, 
as well. So, I will take it upon myself and with my staff to 
work with yours to come with a commonsense solution to this 
problem set.
    Senator Sullivan. Excellent. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    And, Admiral, you'll be pleased to know, I'm--we're 
probably done with our icebreaker questions.
    [Laughter.]
    Senator Rubio. The naval--because I'm--we're going to talk 
about Florida now. And if we ever need icebreakers down there, 
we've got big, big problems.
    [Laughter.]
    Senator Rubio. But, I want to talk about the Cuban migrant 
issue and the--just the massive surge. And, in particular, the 
kind of level of aggressiveness that we're seeing from migrants 
that have been intercepted. As I said in my opening statement, 
when I visited the facility in Miami and got to go out and be 
with these folks for a few hours, I was hearing stories of 
migrants that were stabbing themselves, swallowing lug nuts, 
drinking bleach, anything that would require them to be brought 
onshore to go to the hospital. And so, obviously, I'm not 
asking you to opine on policies, but--in terms of whether 
they're good or bad ideas, but I am asking you to opine on the 
impact that our current migratory policies toward Cuba are 
having on the psychology and behavior of migrants who are 
trying to come. In essence, both wet foot, dry foot, which 
incentivizes people to touch dry land and ultimately the Cuban 
Adjustment Act, in and of itself, which says, if they arrive, 
they get to stay, is a contributor. And I was just hoping you 
could comment a little bit about the current state of affairs, 
how the numbers have ticked up over the last couple of years, 
what are current trends and conditions with regards to 
migration from Cuba.
    Admiral Zukunft. Yes. Senator--Chairman, the numbers you 
alluded to in your opening statement, you know, the increase 
from 14 to 15, and now 15 to 16--from 15 to 16 this last 
quarter, you know, we're up 44 percent. So, yes, the numbers 
are increasing.
    The acts of desperation, we have not seen the likes of this 
before. I was involved in the Mariel boatlift. I was the 
commanding officer of a patrol boat back in 1980. Much 
different dynamics in this--you know, what we're seeing today. 
We're seeing repeat attempts of Cuban nationals trying to gain 
entry into the United States. It's not uncommon, when we have 
an interdiction at sea, as we start the screening process, it's 
not the first time for these individuals. They will go back and 
look for passage a second, third, fourth, fifth--as many times 
as it takes. And then you see these acts of desperation, self-
inflicted gunshot wounds, swallowing bleach, stabbings, and the 
like. And we're seeing, you know, a more frequent occurrence of 
noncompliant behavior when our vessels come alongside.
    And so, it is a desperate situation. At the same time, it's 
a huge investment for the United States Coast Guard to provide 
that deterrent level. And there's been discussions of, ``Well, 
could we move the Coast Guard to, say, the Mediterranean Sea to 
deal with the refugee crisis over there?'' Well, there's a huge 
opportunity cost if you do so. We do have a maritime migrant 
challenge here in the United States. And if the United States 
Coast Guard is not there, then it's now a free pass. I wouldn't 
speculate that you would see a scale of Mariel, but certainly 
if the word is out that the Coast Guard is no longer standing 
the watch, I think the flow would then be unimpeded, going 
forward. So, it's imperative that we have that level of 
persistent presence.
    What I'm especially proud of is the restraint that our 
people show when they encounter noncompliant activity. And we 
do everything we can to uphold human rights concerns for these 
folks that, quite honestly, are looking for a better way of 
life.
    Senator Rubio. There was a media report that some of the 
migrants that had reached the lighthouse actually came with a 
cell phone and--ready to call local media and alert them to 
this. Is that accurate?
    Admiral Zukunft. I'm not sure about the call, but, you 
know, they're on the Americans Show a Light--22--two were 
recovery in the water, 22 were on the light. And now, as you 
alluded to, the judge is--implemented an injunction to discern 
whether that is ``feet dry'' if you land on Americans Show a 
Light at sea. Those 22 members have been on a Coast Guard 
cutter for the last 26 days. But, in all likelihood, they may 
be on there for another 2 or 3 weeks longer.
    It is a burden to our people. At the same time, we don't 
have, you know, all the accommodations to provide for these 
individuals that are waiting to determine the outcome of their 
status.
    Senator Rubio. Can I just ask? As long as the migrants are 
on that cutter, is that cutter unable to conduct other 
operations?
    Admiral Zukunft. We do. We routinely operate, sometimes 
with as many as 200 migrants on our flight decks. But, it 
certainly does limit your operations. And those ships cannot 
stay out for sea indefinitely, which means you may have to 
crossdeck them to another ship. And every time you crossdeck 
someone from one ship to another, there's always the risk of 
someone may fall over the side.
    Senator Rubio. Given that the current numbers are clearly 
straining your resources and perhaps diverting from the ability 
to do some other parts of your mission, if these numbers 
continue to increase, if there's a dramatic, let's say, 
doubling of the current numbers, is it your opinion that--at 
that point will deeply impact the ability of the Coast Guard to 
conduct other essential missions outside of migrant intercept?
    Admiral Zukunft. No, Chairman, as we routinely do, when we 
are overwhelmed in one mission area, we pull from another one. 
The one we would have to pull from, though, quite frankly, 
would be the level of effort we're doing in the transit zone in 
the eastern Pacific and----
    Senator Rubio. On the--in the drug interdiction.
    Admiral Zukunft. Exactly.
    Senator Rubio. So, if this Cuban migrant issue gets much 
larger than what it is now, if it continues to grow in its 
trends, it is your testimony here today that you will have to 
pull resources from drug interdiction to deal with the 
migratory crisis.
    Admiral Zukunft. We haven't reached that threshold yet, 
and, under our operation called Vigilant Sentry, when we start 
seeing, you know, increased threat, you know, flows, there's 
also the possibility we could look for other assistance through 
our Department of Defense. We've implemented that in the past. 
So, that would be another possibility, as well.
    Senator Rubio. OK.
    On the--I know that the recapitalization of the fleet has 
been identified as a priority, as a key to the long-term 
success of the agency. Has the current state and age of the 
fleet--can you talk kind of a little bit about what impact it's 
had on your ability to combat criminal networks?
    Admiral Zukunft. Our 210-foot medium-endurance cutters, one 
of those last night, the Coast Guard Cutter Vigorous, is in the 
eastern Pacific. She's home-ported on the East Coast, but she 
went through the Panama Canal, and she seized, you know, 600 
kilos of cocaine last night, launching two boats, an armed 
helicopter, all at night, you know, with a crew of 75. That's a 
50-year-old ship. By the time we recapitalize those ships, they 
will be approaching their 55-year of service. So, it is a 
challenge for us. We cannot do another service life extension 
program on our 210-foot class of ships. We may have to extend 
the service life out on our 17--on our 13--excuse me--270-foot 
medium-endurance cutters. I would much rather see us 
recapitalize those rather than trying to extend the service 
life to 50 years and beyond.
    I attribute the years of service that we get out of the 
ships to the men and women who do the day-to-day maintenance on 
them. As busy as these crews are when they're out at sea, the 
tempo picks up when you return to port. You would think it 
would be the complete opposite. They've got to get that ship 
maintained and ready to go to put out to sea again. They deploy 
185 days out of the year, but there's not--really not time to 
take a day off. And so, my concern is, we've been operating at 
this operational tempo on the backs of our people.
    Senator Rubio. In terms of technological advancement, is 
the Coast Guard developing or fielding unmanned aircraft, which 
can be launched from ships and used to assist interdiction 
efforts?
    Admiral Zukunft. We do have that in the President's budget, 
and we are moving out on what I would call small unmanned 
aerial systems, much more portable. We worked with the Navy, 
and we worked closely on the Fire Scout Program, and did a 
prototype with that. But, we recognize that we still need 
manned platforms, as well, to do aviation use of force, 
precision fire against fleeing go-fasts or launching rescue 
swimmers to rescue mariners in distress. You can't do that with 
a UAS. And so, we need a light system, a system that doesn't 
come with a support tail of 15-16 people, like the Fire Scout 
did, which then, you know, I have to put other people ashore to 
support what is supposedly unmanned, but it comes with a very 
heavy manpower tail associated with it. So, that's why we're 
looking at small unmanned systems that are sea-based that 
extend our domain awareness, you know, to and just over the 
horizon using these more affordable and, in some cases, almost 
expendable systems.
    Senator Rubio. And finally, is there a Department of 
Defense or Department of Homeland Security requirement for a 
minimum number of ships forward deployed to conduct 
interdiction missions for SOUTHCOM and Joint Interagency Task 
Force South? And if there is such a minimum number, how often 
do we fall short of that requirement?
    Admiral Zukunft. I'll have to back-brief you on that, 
Senator, but we do work through the Joint Staff, in terms of 
resourcing. And, as you can imagine, if you look at, you know, 
all the demands placed on our Department of Defense today, 
every combatant commander does not get the resources they need 
to carry out their mission. The Navy is not able to meet its 
requirements in the western hemisphere, because of the demands 
placed in the Mediterranean, in the MidEast, and in the Pacific 
theaters, as well, which is why the Coast Guard has, you know, 
doubled our effort to fill the void left by the United States 
Navy.
    I'll just add, we do a lot of work with our allies, with 
the Canadians, with the French, Dutch, Her Majesty's Navy, the 
Royal Kingdom. So, they're providing--augmenting us 
significantly. In fact, at one point, this past spring, we had 
14 ships. Out of those, only seven of those were U.S. flag. The 
others were allies helping us in this western hemisphere of 
ours.
    Senator Rubio. Well, Admiral, I want to thank you for your 
service to our country, for being here today. As you saw from 
the attendance during a busy day, there is a lot of interest in 
the mission that you conduct. I have tremendous respect for the 
work that you and your men and women do on behalf of our 
country.
    The hearing record is going to be remain open for--during--
for 2 weeks. And, during this time, Senators will be asked to 
submit any questions they might have for the record. If you 
receive any, Admiral, I would ask, respectfully, that you 
submit your written answers to the committee as soon as you 
possibly can, given all the other work you have going on. So, 
don't divert resources away from drug interdiction to answer 
our questions, so--but, we most certainly would want to have 
answers at some point if you do receive any written inquiries.
    And again, I thank you for appearing before us.
    And, with that, this hearing is adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                        Admiral Paul F. Zukunft
    Question. Does the CG need any additional authorities to combat 
illegal fishing in the Gulf of Mexico?
    Answer. No. The U.S. Coast Guard's general law enforcement 
authority under 14 U.S.C. Sec. 89 is sufficient to combat illegal 
fishing in the Gulf of Mexico.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel Sullivan to 
                        Admiral Paul F. Zukunft
    Question 1. Since U.S. Interior Secretary Sally Jewell denied a 
life-saving reliable medical emergency access corridor from King Cove 
two days before Christmas in 2013, there have been a total of 44 
medevacs total. Of those, 16 involved the Coast Guard and 28 were non-
Coast Guard medevacs.
    Instead, the Secretary continues to expect brave Coast Guardsmen to 
risk their lives flying dangerous evacuation missions in poor weather 
conditions, when this issue of emergency medical access can be solved 
so simply with a few miles of new road.
    Last year, I asked for your thoughts on this situation and what is 
being required of the Coast Guard. You stated that the approximate cost 
was $42,000 per medivac. My understanding is that if the Coast Guard 
executes the medevacs from Cold Bay where there is Coast Guard presence 
during the crabbing and fishing season, the cost is approximately 
$42,000. However, I'm told that outside of fishing season, the Coast 
Guard comes from Kodiak with costs of approximately $210,000. Do you 
know this to be true?
    Answer. The subject estimates are accurate based upon FY 2013 
``outside government'' hourly rates tables corresponding to the 
operation of an MH-60T launched from Cold Bay, AK or an MH-60T launched 
from Kodiak, AK, with an HC-130H cover aircraft also launched from 
Kodiak.
    The ``outside government'' rate is the fully burdened rate, which 
in addition to costs such as fuel, salaries, and maintenance, also 
includes costs such as pension benefits, operating asset depreciation 
and general and administrative costs.

    Question 2. I am told that the Coast Guard is only called when no 
other private medevac service can come because of extreme bad weather. 
Is that correct?
    Answer. That is correct. Commercial providers are the primary mode 
of MEDEVAC response to the Cold Bay/King Cove area.
    The Coast Guard typically receives requests for MEDEVAC when 
commercial providers are unable to respond due to night time flight 
restrictions, cross wind, ceiling and other weather limitations, or 
their own availability.

    Question 3. Is there a specific procedure that the Coast Guard must 
go through before the emergency medevac is approved? Can you describe 
that procedure?
    Answer. When deciding whether a case is sufficiently urgent to 
justify the risks involved with a MEDEVAC, the Search and Rescue 
Mission Coordinator (SMC) will consult numerous sources prior to making 
a response request. SMC will obtain advice from medical personnel, 
preferably Coast Guard or Department of Defense medical personnel 
familiar with Search and Rescue operations, consider emergency medical 
capabilities of Coast Guard crews, and consider the operating 
characteristics of Coast Guard Search and Rescue units.
    The SMC and medical personnel will weigh the risks of the mission 
against the risks to the patient and the responding resource.
    This review of risks includes the patient's clinical status, 
probable patient outcome if MEDEVAC is delayed or not performed, 
medical capabilities of the responding Coast Guard personnel and 
equipment, prevailing weather, sea and other environmental conditions.
    After a MEDEVAC mission is approved by SMC, the final decision to 
conduct the MEDEVAC rests with the aircraft commander, cutter 
commanding officer, or coxswain based on their on-scene risk 
assessment.

    Question 4. So, that puts both the sick/injured, medical personnel 
(usually a local nurse) and the brave Coast Guard crew at enormous 
personal risk. Is this correct?
    As you noted when we discussed previously, the real cost that is 
beyond the finances--there are the real costs associated with the risk 
to the men and women conducting the medivacs.
    Answer. Helicopter Medical Evacuation (MEDEVAC) can be hazardous to 
both patient and crew because of environmental conditions, proximity to 
obstacles and from dangers inherent in transferring a patient from land 
to helicopter or from vessel to helicopter.
    Our aircrews are trained to exercise on-scene initiative to assess 
and articulate the risk, and balance it against the probable gain of a 
proposed course of action.
    We are committed to doing everything we can to assist others, but 
are also committed to doing so safely and without undue risk to our 
Coast Guard men and women.

    Question 5. There's been a lot of attention paid to human 
trafficking and IUU fishing in the Western Pacific region, where the 
Coast Guard has a prominent role in deterring illegal activity on the 
ocean. The U.S. is responsible for a lot of ocean out there, both 
through our territories and with our compact of free association allies 
such as Palau. I think the Coast Guard does a good job with the assets 
it has, but you don't have enough assets on the water to be really 
effective. Are you looking at deploying new technologies, such as 
airborne radar systems, that can help you gather enforcement-quality 
evidence against pirate vessels and their illegal activity, as well as 
increasing our maritime domain awareness capabilities?
    Answer. The Coast Guard continually assesses developing 
technologies for applicability to our statutory mission sets; however, 
the Coast Guard does not have a capability requirement to specifically 
gather enforcement-quality evidence against pirate vessels. Instead, 
the Coast Guard utilizes existing radars, forward-looking infrared 
cameras, and other surveillance sensors onboard cutters and aircraft to 
assist in maritime domain awareness in support of all Service missions.

    Question 6. Regulations calling for the use of Automated 
Identification Systems (AIS) equipment were implemented on March 1st of 
this year, yet questions remain as to when vessels must operate this 
equipment. Vessel operators fear that the use of AIS equipment over 
fishing grounds would reveal the most productive locations, 
jeopardizing their livelihood. It is my understanding that the intent 
of the regulation is to improve navigational safety and, should AIS use 
be limited to Vessel Traffic Service areas, it would successfully 
accomplish this objective. Will you consider whether Automated 
Identification Systems (AIS) should use be limited to Vessel Traffic 
Service areas?
    Answer. Carriage of the Automatic Identification System (AIS) by 
commercial vessels greater than 65 feet in length is required on all 
U.S. navigable waters. There are 11 Vessel Traffic Services (VTS) areas 
nationwide. They comprise a small percentage of the Nation's navigable 
waterways. Limiting AIS carriage to only VTS areas would severely limit 
its utility and would deprive mariners of a proven navigation safety 
tool in many other heavily travelled waterways.

    Question 7. The intent of Congress for the Alternate Safety 
Compliance Program was that the program was to be developed in 
coordination with the fishing fleets using statistical analysis of 
recent incidents to ensure the program addressed actual gaps in safety 
in the fishing fleets around the US. It is my understanding that to 
date the data has not been analyzed--some necessary date isn't even 
available--and the majority of fleets around the U.S. have not been 
contacted. The CG is expected to issue new guidance in January, before 
seeking comment. If final guidance does not come out until sometime 
after January 2017, the fleet will have a very short window to come up 
to compliance to meet the January 2020 implementation. The goal is to 
have targeted regulations developed in cooperation with industry that 
addresses specific gaps in safety based on data analysis. Will the 
Coast Guard meet with industry to develop the general guidance and 
fleet specific annexes before it is released?
    Answer. The Coast Guard is committed to meeting Congress' intent to 
address fishing vessel safety. Having received input from the 
Commercial Fishing Safety Advisory Committee (CFSAC) and the fishing 
industry at numerous meetings and workshops, the Coast Guard suspended 
development of an Alternative Safety Compliance Program (ASCP) and 
instead initiated development of an Enhanced Oversight Program (EOP). 
The EOP will draw upon existing Captain of the Port authorities, can be 
prescribed by policy, and will build upon the existing commercial 
fishing vessel safety examination regime in 46 C.F.R. Pt. 28. 
Recognizing that an ASCP would require new regulations, the Coast Guard 
considers the release of the EOP in January 2017 as an interim measure 
to meet Congress' intent of an ASCP, until such time as we can publish 
any necessary additional requirements by regulations. In addition to 
implementing the EOP, the Coast Guard will issue voluntary safety 
guidelines and best practices for all fishing vessels that will expand 
upon the requirements set forth in 46 C.F.R. Pt. 28 as well as those 
proposed in the NPRM published on 21 June 2016. The Coast Guard will 
continue meeting with CFSAC and the fishing industry to fully develop 
the EOP and safety guidelines.

    Question 8. Given the concern with ensuring compliance, will they 
CG consider delaying implementation to three years after the guidance 
is released?
    Answer. The EOP is a policy action that will not place any 
additional requirements on commercial fishing vessels, beyond what 46 
C.F.R. Pt. 28 mandates. New regulations to develop an ASCP would go 
through a public comment period and take into account any feedback on 
implementation and compliance.

    Question 9. The U.S. Coast Guard's recent change to the ROUPV 
credential will severely impact the guiding industry, commercial 
lodges, and local citizens of Western Alaska. Formerly, guides could 
acquire a ROUPV license for operation on all freshwater rivers or lakes 
in Western Alaska after 120 days of experience anywhere in the country 
and a classroom component. Guides utilizing this system were primarily 
small boats operating on small rivers and streams making up larger 
waterway systems. Recently imposed drastic regulatory changes will 
cripple these local operators.
    What are the Coast Guard's plans and timeline for addressing the 
Citizen Petition to Change Regulations Governing the Restricted 
Operator of an Uninspected Passenger Vessel (``ROUPV'') Credential to 
Alleviate the Disproportionate Adverse Effects on Western Alaska (filed 
May 16, 2016)?
    Answer. The Coast Guard is committed to working collaboratively 
with the petitioners on their concerns regarding the regulations. 
Because the existing regulations provide the Coast Guard with 
flexibility to address many of the petitioners' concerns, the Coast 
Guard responded to the request on August 2, 2016, by denying the 
petition. In the response, the Coast Guard explained that it is 
imperative for operators to have the necessary knowledge and training 
to conduct these operations safely, and that the regulations in 
question are appropriate. We further explained that many of their 
concerns can be addressed by updating Coast Guard policy.

    Question 10. What are the agency's plans to actually involve 
Alaskans in the decision-making process this time around, as there were 
no meetings held in Alaska on the proposed rulemaking before it went 
into effect, and there was no notice given to Western Alaska guides or 
lodges prior to the final rule being enacted?
    Answer. Coast Guard Sector Anchorage contacted the lodge owners to 
collaborate on a process. The lodge owners communicated to the Coast 
Guard that their preference is to meet after the guiding season is 
over.

    Question 11. Have any hearing dates or locations on the petition 
been set?
    Answer. There were no hearings held on the petition for rulemaking.

    Question 12. What timeline has the Coast Guard planned to address 
the petition? The guiding season is already underway.
    Answer. The Coast Guard responded to the petition on August 2, 
2016. The Coast Guard will meet with lodge owners to discuss ROUPV 
following the close of the guiding season.

    Question 13. Is the Coast Guard planning to enact emergency relief 
from the effect of these regulations before a long-term, more permanent 
solution is reached to address the regulations?
    Answer. The Coast Guard is developing an updated policy letter that 
will clarify the existing regulatory flexibility for implementation of 
46 C.F.R. 11.467(g).

    Question 14. Harnessing new technologies to replace traditional 
assets for the performance of mission requirements can optimize the use 
of Coast Guard resources across all mission areas. In the Coast Guard 
Authorization Act of 2015 (Public Law 114-120), Section 606 requires a 
report to Congress on the use of possible alternatives, such as the use 
of satellite surveillance technology, to carry out the International 
Ice Patrol mission. What is the status of completing this report 
required by Sec. 606?
    Answer. The Coast Guard's Congressional Report entitled: ``U.S. 
Coast Guard Report on International Ice Patrol'' has been drafted and 
the Coast Guard anticipates delivery prior to the end of Fiscal Year 
2016.

    Question 15. Can you give me any preliminary information from your 
review on the use of satellite surveillance technology to detect 
icebergs in the North Atlantic as part of the Coast Guard's 
International Ice Patrol mission? For example, will the review do the 
following: Look at the use of both radar and optical satellite image 
data to provide information for operational and programmatic use?
    Answer. A report required by the 2015 CGAA on International Ice 
Patrol (IIP) operations contains the results of the Coast Guard's 
review of current methods and alternatives. The report is in the final 
stages of review and is expected to be released before the end of the 
year.
    Yes. The report examines alternatives to IIP's traditional aerial 
reconnaissance, including the use of both radar and optical satellite 
image data.

    Question 16. Compare satellite surveillance to the aircraft patrols 
used in the International Ice Patrol mission for accuracy, reliability, 
environmental constraints, and cost?
    Answer. The report examines alternatives, including satellite 
surveillance, to IIP's traditional aerial reconnaissance. Each 
alternative was evaluated against the following criterion: (1) ability 
to provide timely data on ice conditions with the highest possible 
resolution and accuracy; (2) ability to operate in all weather 
conditions or any time of day; (3) and cost-effectiveness against the 
cost of current operations.

    Question 17. Consider whether satellite surveillance can be used to 
concurrently support and complement the aircraft operations being 
employed now?
    Answer. Yes. Additionally, the Coast Guard is currently 
supplementing aerial reconnaissance by acquiring commercial synthetic 
aperture radar (SAR) satellite reconnaissance images. When imagery is 
acquired in the northern sections of the IIP operational area, icebergs 
identified can be directly added to IIP's warnings to mariners.

    Question 18. If satellite surveillance can be used for the 
International Ice Patrol, are there other mission needs that the 
aircraft now used for those patrols could be freed up to be used for?
    Answer. The fixed wing aircraft hours dedicated to the IIP mission 
represent 1 percent of the Coast Guard's fixed wing aircraft hours 
overall. If these flight hours were no longer needed for the IIP 
mission, they would be assigned to other mission areas.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Admiral Paul F. Zukunft
    Question 1. National Security Cutters--Admiral Zukunft, to date the 
Coast Guard has completed six National Security Cutters, at an average 
cost of $695 million per ship. These ships are designed to be highly 
capable, multi-purpose successors to our aging fleet of High Endurance 
Cutters, which are now over 50 years old. How would you characterize 
their performance so far, and the Nation's return on investment, as 
these vessels have begun performing their duties, particularly 
regarding drug enforcement and our national security concerns in the 
Western Hemisphere?
    Answer. Between Fiscal Year 2009 and Fiscal Year 2016 to date, the 
interdiction rate of the Coast Guard's three operational National 
Security Cutters (NSC) has far eclipsed that of our High Endurance 
Cutters. NSCs have prevented $2.8 billion of illegal drugs from 
reaching the U.S. Of note, the CGC BERTHOLF interdicted 22 metric tons 
of cocaine in one patrol, including a record eight metric ton cocaine 
seizure from a semi-submersible in the Eastern Pacific.
    NSCs are unsurpassed in range, sea-keeping, and C4ISR capabilities. 
They are the only non-DoD maritime asset able to provide specialized 
intelligence collection and sharing capability in support of DHS 
missions, providing a tremendous strategic and tactical advantage.
    The Coast Guard's most effective offshore interdiction package is a 
flight deck equipped cutter with an Airborne Use of Force (AUF) 
helicopter working with a Maritime Patrol Aircraft (MPA), multiple over 
the horizon cutter boats and a highly trained boarding team, all of 
which are fully supported by the intelligence community. NSCs are 
ideally suited to deliver these unique capabilities.

    Question 2. Offshore Patrol Cutters--Admiral Zukunft, while the 
National Security Cutters are providing exceptional service, my 
understanding is that the true workhorses of the drug and migrant 
interdiction mission in the Caribbean are the legacy Medium Endurance 
Cutters, or MEC's. Most of these cutters were commissioned over 50 
years ago, yet are still patrolling out there today accomplishing this 
very important mission. How would you describe the current situation 
regarding the reliability and mission readiness of the MEC fleet, and 
what challenges are they imposing on accomplishing the Coast Guard's 
interdiction missions?
    Answer. In the past six years, six MECs have been sent to emergency 
dry docks because of unscheduled maintenance. In Fiscal Year 2015 
alone, the MEC fleet recorded 184 lost cutter days due to unscheduled 
dockside maintenance threatening our ability to project persistent 
offshore presence. Recapitalizing this aging fleet with the Offshore 
Patrol Cutter (OPC) is the agency's highest acquisition priority. 
Continued progress is absolutely vital to recapitalizing the MECs, some 
of which will be over 55 years old when the first OPC is delivered. In 
concert with the extended range and capability of the NSC and the 
enhanced coastal patrol capability of the Fast Response Cutter (FRC), 
OPCs will be the backbone of the Coast Guard's strategy to project and 
maintain offshore presence. We are on track to award OPC Detail Design 
by the end of the Fiscal Year. This will be a significant milestone in 
the acquisition of these important assets.

    Question 3. Readiness of Coast Guard--Admiral Zukunft, I understand 
that accomplishing these complex interdiction missions at sea requires 
maintaining a ``continuous presence'', i.e., ensuring that ships and 
aircraft are continuously monitoring the smuggling routes used for 
drugs and migrants. For example, if a migrant smuggling route is left 
unguarded and a few boats successfully complete the journey and phone 
home to report this, we could very quickly end up with an unintended 
mass migration on our hands, placing thousands of lives in jeopardy as 
they attempt a very perilous journey. We have already discussed the 
readiness issues of the Coast Guard's aging fleet of aircraft and 
ships. What impact do these increasingly frequent failures have on your 
ability to maintain this ``continuous presence''?
    Answer. In the past six years, six MECs have been sent to emergency 
dry docks. In Fiscal Year 2015, the MEC fleet recorded 184 lost cutter 
days due to unscheduled dockside maintenance threatening our ability to 
project persistent offshore presence. Recapitalizing this aging fleet 
with the Offshore Patrol Cutter (OPC) is the Coast Guard's highest 
acquisition priority. Continued progress is absolutely vital to 
recapitalizing the MECs, some of which will be over 55 years old when 
the first OPC is delivered. I am pleased to report we are on track to 
award OPC Detail Design by the end of this Fiscal Year. These new 
assets will help the Coast Guard maintain robust and effective at-sea 
presence to detect, deter, and interdict threats as far from our shores 
as possible.

    Question 4. Helicopter Interdiction Tactical Squadron (HITRON)--
Admiral Zukunft, I understand that the Jacksonville, FL based 
Helicopter Interdiction Tactical Squadron (HITRON), has proven an 
extremely effective tool in both the Caribbean and Eastern Pacific for 
interdicting so-called `go-fast' vessels, speedboats carrying large 
amounts of narcotics from Central and South America to the United 
States. These helicopters use special tactics and highly-trained 
marksmen to shoot out and disable the engines of these smugglers, so a 
boarding team can then intercept them on the water and detain them. How 
do these teams receive this specialized training, and why has the use 
of these teams so often been linked to successful drug seizures?
    Answer. U.S. Coast Guard HITRON pilots are highly trained and 
specialized in Airborne Use of Force Counter Drug (AUF-CD) operations, 
tactics, and legal authorities. The pilots complete an extensive ground 
syllabus followed by numerous day and night AUF flights to test flight 
skills and judgment; culminating their training in a minimum 30 day 
deployment with an AUF-CD Mission Commander to gain operational 
experience.
    In addition to the extensive pilot training and certification 
process, the Coast Guard Precision Marksman program has its own 
rigorous qualification procedure. All shooters build upon the 
fundamentals of rifle marksmanship through course curriculum and 
practical application to include operation and maintenance of the 
precision weapon system, positional shooting, sighting systems, and 
long range target engagement. Candidates receive training in day and 
night shooting proficiency at various distances with precision and area 
fire weapon systems, precision shooting from a helicopter day and 
night, and once qualified, conduct mandatory sustainment training both 
on the ground and in the air to continue professional development, hone 
skills, and maintain proficiency.
    The specialized capability of Airborne Use of Force (AUF) is a 
valuable force multiplier for operational commanders. A helicopter's 
maneuverability, range airspeed, hovering capability, and ability to 
operate at both high and low altitudes make it an exceptional platform 
for delivering precision rifle fire in order to disable and interdict 
Non-Compliant Vessels. Additionally, AUF aircrews are able to reduce 
risks associated with boarding operations by providing precision cover 
fire for responding boarding teams. The Coast Guard's most effective 
force package is a flight deck equipped cutter with an AUF helicopter 
working with a Maritime Patrol Aircraft, multiple over the horizon 
cutter boats, and a highly trained boarding team that is fully 
supported by the intelligence community. HITRON AUF capability provides 
the most decisive and deliberate ``End Game'' in the Coast Guard's 
arsenal to combat illicit maritime activities.

    Question 5. Narco-Submarines--Admiral Zukunft, we know that the 
manufacture and distribution of illegal narcotics are an incredibly 
lucrative trade, one that incentivizes cartels to go to great lengths 
and expense to innovate new methods to avoid detection. I have heard 
more and more accounts of the Coast Guard interdicting so-called narco-
submarines-semi-submersible, and even fully-submersible, ships, built 
in the depths of the jungles of Colombia and Ecuador to move massive 
amounts of drugs while remaining nearly undetectable. I understand that 
Joaquin ``El Chapo'' Guzman was among the first to make use of these 
submarines, and hired naval architects to devise a means for 
constructing these relatively sophisticated vessels in primitive 
conditions under the deep jungle canopy. How is the Coast Guard doing 
at keeping pace with advancements in technology these cartels are 
employing, and what can we do to ensure you have the resources you 
need?
    Answer. The Coast Guard is making great progress in its 
modernization efforts through the acquisition of new surface assets 
such as the National Security Cutter (NSC), Fast Response Cutter (FRC) 
and upcoming Offshore Patrol Cutter (OPC). Both the National Security 
Cutter (NSC) and planned Offshore Patrol Cutter (OPC) provide a robust 
system of C4ISR sensors that will enhance surveillance, detection, 
classification, identification, and prosecution performance in the 
offshore environment.
    Leveraging this system, the Coast Guard utilizes intelligence 
sourced from the intelligence community, including DOD, and domestic 
law enforcement agencies, via the Joint Interagency Task Force South 
(JIATF-S) to provide all resource fusion and direct tactical cueing of 
assets to facilitate interdictions. Maritime drug smuggling 
interdictions yield intelligence and critical access to TCO networks, 
further expanding the Nation's ability to identify, target, and defeat 
illicit networks.
    The Coast Guard continuously seeks to develop effective 
intelligence, surveillance, and reconnaissance methods and technologies 
to stay ahead of this evolving threat.

    Question 6. Recapitalization of Offshore Patrol Cutters--Admiral 
Zukunft, You have previously stated to this Committee the urgent need 
for ``investments in a 21st century Coast Guard.'' In February of 2014, 
the Coast Guard awarded contracts to three shipbuilding groups to 
design new models of Offshore Patrol Cutters, blueprints and 
specifications of which are due at the end of this fiscal year. As your 
Service approaches the selection of one of your shipbuilding vendors' 
propositions, what qualities will you consider as top priorities in the 
design of these new vessels?
    Answer. The key performance parameters established by the Coast 
Guard define the top priorities for successful operation of the 
Offshore Patrol Cutter (OPC), and these attributes play an essential 
role in its design. Significant effort has gone into developing 
requirements and a design with the necessary operational capability for 
sea-keeping, speed, and range. Additionally, the requirements were 
written to achieve a structurally robust platform capable of supporting 
the Coast Guard's mission profile. Coast Guard habitability standards 
and attention to human systems integration were also considered. The 
OPC design will provide a high degree of functionality for workshops, 
offices, living, and mission spaces, and will meet the latest 
environmental standards. The electronics and sensors will incorporate 
state of the market technologies that support open systems 
architecture. Finally, the Coast Guard values affordability and will 
consider how each provides the best overall value to the government.

    Question 7. How will those qualities allow for ships that are both 
long-lasting and adaptable to technological advances in the 21st 
century?
    Answer. The OPC Program is based on state of the market technology, 
but is being designed to account for potential changes that accompany a 
vessel designed for, and projected to last, many years. For example, 
the OPC requirements were developed to allow the vessel to adjust to 
changing missions such as adaptability for future helicopters, Small 
Unmanned Aerial Systems, and boats. Additionally, vessel support 
systems for heating, cooling, ventilation, and power are designed with 
service life growth margins, which facilitate future equipment and 
technology upgrades. The open systems architecture will allow for 
technology refresh of electronics and sensors to support mission system 
upgrades. Habitability, functional arrangement, and work-life 
considerations will result in improved crew comfort for enhanced 
mission effectiveness. The 30 year service life design will ensure a 
sound platform for the Coast Guard well into the 21st Century.

    Question 8. Resources Important to Coast Guard--Admiral Zukunft, 
what is the single most important resource the Coast Guard needs today, 
but does not have?
    Answer. My biggest concern is that I have Coast Guard men and women 
protecting our Nation on ships that are older than their parents. Our 
Medium Endurance Cutters are in desperate need of replacement and that 
is why the Offshore Patrol Cutter (OPC) is my highest priority. I am 
grateful for the strong support we have received from the Secretary and 
Congress for this important acquisition, and am pleased to report we 
are on track to award OPC Detail Design by the end of this Fiscal Year.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Admiral Paul F. Zukunft
    Question 1. Coast Guard Museum--The Coast Guard has played a vital 
role in our country's safety and security for 226 years. But this 
important pillar of our Nation's homeland security is the only 
uniformed service without a national museum. The other branches all 
have museums where Americans and visitors from around the world can 
learn more about their history and traditions. And rightfully so. But 
not the Coast Guard.
    Thankfully, we're righting that wrong. Until last year, there was a 
significant, sizeable hurdle that held us back from fully realizing the 
goal of funding and building a museum. That hurdle came in the form of 
a law that prohibited the Coast Guard from using its funds for museum 
construction. With the help of this committee and the Coast Guard, we 
fixed that in the Coast Guard Authorization bill the president signed 
in February. The Coast Guard will now be able to invest resources in 
getting the museum off the ground. We've already secured $5 million 
from appropriators for next year's budget.
    Now I understand there's a new challenge. Some have questioned 
whether FEMA will even allow the building of the museum in downtown New 
London, concerned by the museum's location in a possible flood plain. 
My office has been in close contact with FEMA, which so far seems 
willing to work collaboratively to address these issues.
    Admiral Zukunft, The museum association has a lead role in 
construction, but the Coast Guard has an important role, too. Do I have 
your commitment to ensure this critical effort succeeds and the museum 
gets built as the present site in New London by 2020? Even if FEMA 
determines that some extra precautions must be taken to prevent 
flooding issues, do I have your commitment to ensure that the Coast 
Guard and FEMA--both of which are agencies of the Department of 
Homeland Security--will collaborate to ensure we build in downtown New 
London?
    Answer. I fully support the National Coast Guard Museum (NCGM) 
project in New London, and the Coast Guard will continue to provide 
guidance and expertise as resources allow. The Coast Guard is not 
involved in the construction of the proposed NCGM facility, but 
continues to make its experts and artifact collections available to the 
NCGM Association. The NCGM Association's plan to complete construction 
by 2020 is dependent upon a number of factors, including its ability to 
raise funds through donations and to obtain permitting approvals from 
state, local, and Federal agencies. We are aware of the challenges 
associated with building on the proposed site, and remain committed to 
supporting the NCGMA in satisfying FEMA and other permitting agency 
requirements. The Coast Guard supports the construction of a National 
Coast Guard Museum in New London, but has limited resources to 
contribute given ongoing efforts to recapitalize our aging vessels, 
aircraft, and shore infrastructure.

    Question 2. Coast Guard Band--Last year we heard some troubling 
news. After a century of service in Connecticut, the Coast Guard was 
looking closely at uprooting the dozens of members of the Coast Guard 
band and shipping them off to Washington, DC.
    This may seem like a small, insignificant relocation of a few 
personnel, but it's actually something that could have a massive, 
profound impact on my state. In a letter to you, I stressed that the 
relocation of the Coast Guard Band could have far-reaching economic and 
cultural consequences for my constituents, yet the process to review 
moving the band was shrouded in mystery, with scant publicly available 
information justifying these efforts.
    My colleagues on the appropriations committee are working with me 
to ensure this is prevented next year in the Fiscal Year 2017 
appropriations bill. There's always a chance that important bill--with 
its critical language blocking a band move--could not become law. 
Instead, Congress could passing a continuing resolution, waiting for 
the next administration before taking up a major spending bill.
    Admiral Zukunft, If the spending bill unfortunately flounders, can 
I get your commitment to keep the band in New London permanently?
    Answer. Following a careful review, the Coast Guard has decided to 
keep the band located at the Coast Guard Academy in New London, Conn. 
The decision is not contingent upon the passing of the FY 2017 
appropriations bill.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.


      
</pre></body></html>
